In the
Supreme Court of the United States
Case No. _____________
__________________________________________________________________

MICHAEL A. SUAREZ, TRUSTEE OF THE MAS FAMILY TRUST
PETITIONER,
V.
ALF J. AANONSEN,
RESPONDENT.
_______________________________________________________________

APPENDIX
PETITION FOR WRIT OF CERTIORARI
_______________________________________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE THIRD DISTRICT
COURT OF APPEALS
AND
THE SUPREME COURT OF THE STATE OF FLORIDA
____________________________________________________________
ARTHUR J. MORBURGER
Counsel of Record
19 WEST FLAGLER
STREET. SUITE 404
Miami, FL 33130
(305) 374-3373
Email:
amorburger@bellsouth.net

INDEX TO APPENDIX
PETITION FOR WRIT OF CERTIORARI
Pages

1
0F

1. APPENDIX A
Order of the Supreme Court of the State of Florida
denying review. Entered on December 1, 2020

4

2. APPENDIX B
Opinion of the Third District Court of Appeal of the
State of Florida reversing the Final Judgment for
Punitive Damages. Entered on June 24, 2020

6

3. APPENDIX C
Final Judgement for Punitive Damages awarded by
Trial Court on the basis of a violation of the Foreign
Corrupt Practices Act. Entered on November 5, 2018

10

4. APPENDIX D
Judgement for Compensatory Damages and
Declaratory Relief entered by the Trial Court on
December 20, 2016.

23

5. APPENDIX E
Plaintiff’s Trial Memorandum of Law on Punitive
Damages based on the violation of the Foreign
Corrupt Practices Act.

28

6. APPENDIX F
Plaintiff’s Post Trial Memorandum of Law

1

40

The number refer to the pages in this Appendix in which the referred documents are included.

APPENDIX A

Supreme Court of Florida
TUESDAY, DECEMBER 1, 2020
CASE NO.: SC20-1199
Lower Tribunal No(s).:
3D18-2466; 3D19-612; 132016CA009220000001
MICHAEL A. SUAREZ, ETC.
Petitioner(s)

vs.

ALF J. AANONSEN
Respondent(s)

This cause having heretofore been submitted to the Court on jurisdictional
briefs and portions of the record deemed necessary to reflect jurisdiction under
Article V, Section 3(b), Florida Constitution, and the Court having determined that
it should decline to accept jurisdiction, it is ordered that the petition for review is
denied.
No motion for rehearing will be entertained by the Court. See Fla. R. App.
P. 9.330(d)(2).
LABARGA, LAWSON, MUÑIZ, COURIEL, and GROSSHANS, JJ., concur.
A True Copy
Test:

dl
Served:
ARTHUR J. MORBURGER
ALF J. AANONSEN
HON. MERCEDES M. PRIETO, CLERK
HON. BEATRICE AVGHERINO BUTCHKO, JUDGE
HON. HARVEY RUVIN, CLERK

APPENDIX B

APPENDIX C

APPENDIX D

|ffiltililtilffiiltilililtIililililtililffil

CFH?0t7Rl:n:rL15L'18?
0R EK 3037? Fss 251?-?5154Fss
; 4.;,3
H[:fnRD[.|]t:11
/ tt4nr-117t.d I J11
I'lAftUfYRLIUIil:fLHF:f'ilF {:illjt.T, nIAHI*t}$1*[fSUl,tTYrfl0ftISA

TNTHE CIRCUITCOURTOF THE I ITH
JUDICIALCIRCUITTNAND FOR
MI-AMI-DADECOUNTY,FLORIDA
GENERALJURISDICTIONDIVISION
CASENO.:20I 6-009220-CA-01
MICHAELA. SUAREZ,asTrustee
of theMAS FamilyTrust,
Plaintif[
vs.

'-;
,-,+3

KLP HOLDINGS,INC.(LIBERIA),a foreign
corporation;
SEAOIL TRADING,INC.,a
foreigncorporation;
ALF J. AANONSEN,
individually;
andCHRISTOFSCHLAUBITZH.
a/</aCRISTOBALSCHLAUBITZ,individually,

\l-\

Defendants.
/

'\'
=

Tl

crr

;g:^

=

; S FI\) g ?|U

<9=

g ; ; o 8
iXo

b

*.=3-fi

r-t
H
,.-<_-

6;l
'r--^-j

-

co
{

\

f

o
:O
c]

DEFAULT FINAL JUDGMENT FOR DAMAGES
AND DECLARA.TORYRELIEF
THIS CAUSEhavingcomebeforetheCourtfor hearingon December
20,2016,on the
motionof Plaintiff,MICHAEL A. SUAREZ,as Trusteeof the MAS FamilyTrust,for theentry
of a DefaultFinal Judgmentfor Damagesand DeclaratoryRelief againstDefendants,
KLP
HOLDINGS,[NC. (LIBERIA),SEA OIL TRADING,INC., andALF J. AANONSEN,andthe
Courthavingentereddefaultsagainstthe defendants,
havingreviewedthe motion,the Affidavit
of Claim and othersupportingdocuments,
havingheardargumentof counsel,notingthat the
Defendants
failedto appearfor the hearing,despitebeingproperlynoticed,andbeingotherwise
fully advisedin thepremises,
it is
ORDEREDAND ADJUDGEDasfollows:
l. A DefaultFinalJudgment
is herebyentered
in favorof Plaintiff,MICHAEL A. SUAREZ,
as Trusteeof the MAS FamilyTrust,whoseaddressis 5l5l CollinsAvenue,ApL832,

^oD#

Suarez
v. KLP
Holdinss
et al.
CaseNo.16-009220
CA40
Default
FinalJudgment
for Damages
andDeclaratory
Relief
Page
2
Miami Beach,FL 33140,andagainstDefendants,
KLP IIOLDINGS,INC. (LIBERIA),
l0l DingletownRoad,Greenwich,FairfieldCounty,Connecticut,06830,SEA OIL
TRADING, [NC., 101 DingtetownRoad,Greenwich,FairfieldCounty,Connecticut,
06830,andALF J. AAI\ONSEN, l0l DingletownRoad,Greenwich,FairfieldCounty,
Connecticut,
06830,jointly and severally,on the claimsfor damagesin the principat
AMOUNT
of ONE MILLION, THREEHLNDREDAND FIFTY THOUSANDDOLLARS
($1,350,000.00),
plusprejudgment
interest
sinceNovember
5, 2014of ONE HUNDRED
THIRTY SIX THOUSANDTHREEHUNDREDTWENTY SEVENDOLLARSAND
68/100CENTS($136,327.68)
($175.68
perdiem for 776days),for a totaljudgment
of
ONE MILLION

FOUR HUNDRED EIGHTY

SIX THOUSAND THREE

HUNDRED TWENTY SEVENDOLLARS AND 68/100CENTS($1,486,327.68),
for
whichsumslet executionissueforthwith.
2. A DefaultFinalJudgment
is herebyentered
in favorof Plaintiff;MICHAEL A. SUAREZ,
as Trusteeof the MAS FamilyTrust,whoseaddress
is 5l5l CollinsAvenue,Apt. 832,
Miami Beach,FL 33140,andagainstDefendants,
KLP HOLDINGS, INc. (LIBERIA),
l0l DingletownRoad,Greenwich,FairfieldCounty,Connecticut,
06830,andSEA OIL
TRADING, fNC., 101 DingletownRoad,Greenwich,FairfieldCounty,Connecticut,
06830onthedeclaratory
reliefclaim.TheCourtdeclares
thatasa resultofthe Defendants'
breaches
of the Purchase/Sale
Agreement
betweenthepartieswhichis the subjectof this
action,thatPlaintiffis entitledto thereturnof thedocuments
whichwereplacedin escrow
aspartof thetransaction,
andwhichareidentifiedon the list which is attached
heretoas
Exhibit"A." The escrowagent,JavierJ. Rodriguez,
Esq.,Perez&. Rodriguez,
P.A.,95
Menick Way, Suite600, Coral Gables,FL 33134,is herebyauthorizedto releasethe
(* 7
escrowed
documents
to Plaintifffo.tt *itf,.
jurisdictionto consider
3. TheCourtreserves
anyof PlaintifPsclaimsfor attorneys'
feesand
costsasallowedby thePurchase/Sale
Agreement,
aswell asanyclaimfor damages
under

(*)

-71p

ot

s'Aa r/

+

Fo -/

a /so 42

Han,*#

do*t

at /^t

re/u-*u&

Huta).
1r2

Klp
\t-/,e-

tttdtslpael
<Peru{ret

,
I

Suarez
v. KLPHoldines
et al.
CaseNo.15-009220
CA40
DefaultFinalJudgment
for Damages
andDeclaratory
Relief
Page3
Section768.72,Florida Statutes(2016). Any motionsrelatedto suchclaims must be filed

within sixty(60)daysof theentryof this DefaultFinalJudgment.

, ,1

DONE AND ORDEREDin chambers
at Miami-DadeCounty,Florida ni, ffi

ot

December,20l6.

John W. Thornton
Circuit CourtJudge

RIGINAI
JUOGE
JO}IIIJ
W.IHORIIIOilJB.

KLP HOLDINGS,INC. (LIBERIA) (alf.aanonsen@klpindustries.com);
SEA OIL TRADING,
INC. (al@seaoilshipping.com);
ALF J. AANONSEN (e]f@sS9sr&.cs!0);n. f. Okcular, Esq.
and Reid A. Schaeffer, Esq. service@lgplaw.com;PEREZ & RODRIGUEZ, P.A.
(Pleadin
gs@prmiamilaw,com)

fl,"6ft"Suff,^Ff
P,.m,TE-?,[F.l-fi
odginolonlileinthisollicc.\-

,

,-

r A-_,+
Courts
qcLqHSv
Clertotcircuit
iriivev RUvlN,

DeputyClerk

€t //z{x

nrt Elt 3rf3?:l
I-..A5T F'A'(iE

FG

:1515

KLP INDUSTRIES
List of Documentsin Escrow
with Javier Rodriguez,Esq.
in Connectionwith the Saleof
l00oh Member lnterest of
KLP Industries LLC

1. Copy of "Sale of LLC Agreemenf' for the sale of 100%
interest of I(LP Industries LLC.

ffi

2. Fully executedbill of salefor 100percent(100o/o)
MemberInterestof
KLP IndustriesLLC.
3. CorporateBooksof KLP IndustriesLLC includingArticlesof
Qrganization,Certificateof Incorporation,Statementof Registered
Agent, Written Consentto Organize,and l00yo member interest.
4. Certificateof Good Standingissuedby the Stateof Florida Dept.of
StatedatedMay 20t2.
5. Annual Report for the year2012filed by KLP IndustriesLLC withthe
Florida Departmentof StateDivision of Corporations.
6. PDVSA RegisfrationDocumentsfor KLP IndustriesLLC including
R.U"C.C.V.E.certification.
7. KLP IndustriesTarI.D. Number

I
I

I
I

L

P.O.Box S00S06 Aventura,Florid" 33280
Gl"plrorre,305-S6g-9599 Fax:305-864-L227 E-m"il,l''ritithoil@ool.cont

APPENDIX E

Filing # 75642282 E-Filed 07/27/2018 04:41:59 PM

IN THE CIRCUIT COURT OF THE 11TH
JUDICIAL CIRCUIT IN AND FOR
MIAMI-DADE COUNTY, FLORIDA
GENERAL JURISDICTION DIVISION
CASE NO.: 2016-009220-CA-01

MICHAEL A. SUAREZ, as Trustee
of the MAS Family Trust,
Plaintiff,
vs.
KLP HOLDINGS, INC. (LIBERIA),
a foreign corporation;
SEA OIL TRADING, INC., a foreign corporation;
ALF J. AANONSEN, individually;
Defendants.

______________________________________________________
PLAINTIFF’S TRIAL MEMORANDUM OF LAW
______________________________________________________
Honorable Judge Beatrice Butchko
Judge of the Circuit Court, 11th Judicial Circuit
Miami Dade County, Florida
Presiding
______________________________________________________

PEREZ & RODRIGUEZ, P.A.
Attorneys for Plaintiff
95 Merrick Way, Suite 600 Coral Gables, Florida 33134
Tel:(305) 667-9878; Fax:(305) 667-9657
Service Email: Pleadings@prmiamilaw.com

INTRODUCTION
In this case, at this trial, Plaintiff, MICHAEL A. SUAREZ, as Trustee of the MAS Family
Trust (“Suarez”) is seeking an award of Punitive Damages. The Court already entered a default
against Defendant, ALF J. AANONSEN (“Aanonsen”) on the claim for punitive damages,
meaning that the allegations in the Second Amended Complaint are accepted as admitted or
proven, therefore, the trial is on damages only. This Trial Memorandum is intended to provide
guidance to the Court in making the award.
An award of punitive damages is made by the Court in this non-jury case based on a
preponderance of the evidence standard. The Court should award damages that would serve the
dual purpose of punishing the defendant and deterring similar conduct in the future. The deterrence
justification for punitive damages is motivated by two objectives: (1) to deter the specific
defendant in the case from repeating or continuing his, her, or its offensive behavior; and (2) to
deter, generally, other potential parties from committing similar offenses. See Restatement
(Second) of Torts, section 908. This analysis can be based on a methodology using a multiple of
the award of compensatory damages, or on a percentage of the Defendant’s net worth.
Under Florida law, section 768.73, Fla. Stat. provides an additional parameters for an
award of punitive damages. It begins by limiting punitive damages to three times the award of
compensatory damages or $500,000.00 in most cases. Section 768.73(1)(a). However, in cases
where the Court determines that the wrongful conduct was motivated solely by unreasonable
financial gain, and determines that the conduct was unreasonably dangerous, together with the
high likelihood of injury resulting from the conduct, the limitation is raised to four times the
amount of compensatory damages or $2,000,000.00. Section 768.73(1)(b). Lastly, in cases where
there is specific intent to harm the claimant and defendant's conduct did in fact harm the claimant,
there is no cap on the amount of punitive damages a Court can award. Section 768.73(1)(c).
Under Federal Law, more specifically the Foreign Corrupt Practices Act - 15 U.S.C. §78dd1 et seq. ("the Foreign Corrupt Practices Act.") there is no cap or limit on the imposition of fines
and punitive damages as more specifically set forth below and supported in Exhibits A, B, C, and
D.
Consistent with other awards under Federal law, Suarez asks for an award for punitive
damages equivalent to 10% of Defendant’s self-declared assets.
FACTS AND PROCEDURAL HISTORY
This action arises in connection with the sale of a Florida limited liability company, KLP
Industries, LLC ("KLP"), by Suarez to the Defendants.
On March 19, 2014, Suarez, as seller, KLP Holdings, as purchaser, and Sea Oil Trading,
as guarantor, entered into an agreement titled "Purchase/Sale of 100% Interest of KLP Industries

2

LLC Agreement" ("the Purchase/Sale Agreement"), pursuant to which Suarez agreed to sell his
100%-member interest to KLP Holdings.
Defendant paid the first part of the purchase price at the time of closing but never paid the
balance due. On April 12, 2016, Suarez filed this action as a result to Defendants’ failure to pay
the balance of the purchase price. The five count Amended Complaint included the following
claims: (i) breach of contract against KLP Holdings; (ii) declaratory relief against KLP Holdings
and Sea Oil Trading; (iii) breach of guaranty against Sea Oil Trading; (iv) breach of fiduciary
duty against Aanonsen; and (v) breach of fiduciary duty against another defendant, Cristobal
Schlaubitz, who subsequently settled with Suarez.
Aanonsen was initially represented by counsel and vigorously challenged venue and
service. The court ruled in Suarez’s favor on both challenges. Subsequently Aanonsen fired his
attorneys and chose to represent himself. He chose not to respond to the initial complaint. He also
chose to ignore numerous other court orders. Nevertheless, throughout the proceedings, Aanonsen
appeared by phone or personally at the hearings.
On December 20th, 2016, after striking the Defendants’ pleadings due to serial noncompliance with various Court orders, the Court entered a Default Final Judgment for Damages
and Declaratory Relief against all the Defendants except Schlaubitz in the amount of
$1,486,327.68. This judgment was never appealed, and a later motion to vacate the judgment was
denied.
On March 7th, 2017 this Court entered a Final Judgment for Attorney’s Fees and Costs in
the amount of $199,893.53. The remaining claim against Schlaubitz was thereafter settled. The
final judgment specifically reserved jurisdiction to consider claims for punitive damages under
section 768.72, Fla. Stat. (2016).
Plaintiff subsequently filed his Amended Motion for Leave to Assert Claim for Punitive
Damages, and the Court granted the motion, finding the proffer of evidence sufficient to support a
claim of punitive damages.
On January 30th, 2018 this Court entered a default against Aanonsen on the punitive
damages claim. Pending before the Court is a non-jury trial for a determination of the amount of
punitive damages.
GROUNDS FOR AWARD OF PUNITIVE DAMAGES
The specific actions for which Plaintiff is seeking punitive damages against Aanonsen are
acts committed in breach of his fiduciary duty. The acts are well articulated in Plaintiff’s Motion
for Leave to Amend to Assert Punitive Damages and the Exhibits filed with the Court on
November 3, 2017; all of which are incorporated herein by reference.

3

As detailed in the Second Amended Complaint, allegations which are deemed admitted
based on the entry of a default against Aanonsen, Defendant Aanonsen breached his fiduciary duty,
engaged in fraudulent, criminal, reckless and reprehensible behavior, as follows:
(1) Defendant made an illegal payment to a Foreign Official as defined under the Foreign
Corrupt Practices Act in an attempt to gain an unreasonable financial gain;
(2) Defendant submitted false and fraudulent financial statements to Petroleos de
Venezuela, S.A. (“PDVSA”) which reflected a net worth in excess of $700 million dollars; and
(3) Defendant did not file Federal Income Tax Returns for the Company while he was
Manager of KLP Industries LLC and in control of the company;
Defendant Aanonsen committed these acts while he knew, or should have known, that he
was committing illegal acts punishable by law. Defendant is guilty of gross negligence at best, but
much more likely intentional misconduct. Defendant had actual knowledge of the wrongfulness
of his conduct, and that injury to the Plaintiff would result from Defendant’s conduct. (Plaintiff
subsequently found out that Company was barred from doing business with PDVSA while under
the control of Defendant Aanonsen - See internal email from PDVSA attached as Exhibit M)
Defendant’s conduct was motivated by his own desire for unreasonable financial gain, and
Defendant had a conscious disregard and indifference as to how his actions would affect others.
He committed these acts which caused the erosion of the value of the stock of the company which
was being held in escrow to guarantee his second payment for the balance of the purchase price;
which he never paid.
The Foreign Corrupt Practices Act is a Federal statute. An illegal payment in violation of
the FCPA is considered a criminal act by the U.S. Department of Justice. The failure to file federal
income tax return is also a violation of Federal law. The submission of false and fraudulent
supposedly audited financial statements prepared by the office of Deloitte in Panama on behalf of
Defendant and submitted to Petroleos de Venezuela is a breach of his fiduciary duties to Plaintiff.
Although this case is being tried in state court, the violations for which punitive damages
are being sought include violations of Federal statutes and the Court can consider Federal law in
making the award. Under the Foreign Corrupt Practices Act - 15 U.S.C. §78dd-1 et seq. there is
no cap or arbitrary limit on the imposition of fines and punitive damages a Court can award. (See
discussion below and support attached as exhibits A, B, C and D).
DISCUSSION
As discussed above, punitive damages serve the dual purpose of punishing the defendant
and deterring similar conduct in the future. The deterrence justification for punitive damages is
motivated by two objectives: (1) to deter the specific defendant in the case from repeating or
continuing his, her, or its offensive behavior; and (2) to deter, generally, other potential parties
from committing similar offenses. This rationale of deterrence is especially strong in cases in
4

which other measures of civil damages, and the unlikely prospect of criminal prosecution, are
together insufficient to prevent an individual or entity from engaging in a wrongful act. Indeed,
absent the fear of punitive damages, a defendant may have little incentive to discontinue the
unlawful or harmful conduct.
As stated earlier, claims for punitive damages in Florida are governed by section 768.72,
Fla. Stat., the provisions of which are described below: 1
I.

Procedural Standard

The first step a claimant must take in an effort to recover punitive damages is a procedural
step. A claimant must make “a reasonable showing by evidence in the record, or proffered by the
claimant, which would provide a reasonable basis for recovery of such damages.” Section 768.72
(1) Fla. Stat. This procedural step has been discussed by the Florida Supreme Court in Globe
Newspaper Co. v. King, 658 So. 2d 518 (Fla. 1995), where the Court held that the plain meaning
of the statute “requires a plaintiff to provide the court with a reasonable evidentiary basis for
punitive damages before a court may allow a claim for punitive damages to be included in a
plaintiff's Complaint.” Id. Once this hurdle has been successfully crossed, the substance of the
evidence put forth by the plaintiff becomes the issue of paramount importance.
II.

Substantive Standard

Although a “traditional standard” exists and has been utilized for many years, there are
more recent standards that have been put in place by the courts as well as the legislature. The
traditional standard was set forth by the Florida Supreme Court in Winn & Lovett Grocery Co. v.
Archer, 171 So. 214, (Fla. 1936). In Archer, the Court held that in order to recover punitive
damages the plaintiff must “allege some general facts and circumstances of fraud, malice, gross
negligence, or oppression tending to show plaintiff’s right to recover such damages in addition to
damages by way of compensation.” Id. at 222. The Court goes on to state that these damages are
“left to the discretion of the jury, as the degree of punishment to be inflicted must always be
dependent on the circumstances of each case, as well as upon the demonstrated degree of malice,
wantonness, oppression, or outrage found by the jury from the evidence.” Id. at 221-222. The
Court’s decision in Archer further clarified that as a general rule, the liability of a corporation
regarding punitive damages for “wanton or malicious torts committed by an agent or servant” of
the corporation is no different than the liability of an individual acting in the same manner. Id. at
221.
Another significant Florida Supreme Court case, which has important implications when
deciding the issue of punitive damages, is Ault v. Lohr, 538 So.2d 454 (Fla. 1989). In Ault, the
Court held that an award of nominal or compensatory damages is not required in order to award

1

See, Punitive Standards and Limitations Under Florida Law, by David H Margol. The Florida Bar Journal March 12,
2012.

5

punitive damages. Id. at 454. Rather, all that is required is a finding of liability by the trier of
fact. Id. This decision resolved conflicting lower court opinions and provided a clearer standard
moving forward.
The “malice standard” or the existence of malice as a characteristic of the defendant’s
actions is also commonly referred to by courts when the issue of punitive damages is raised. In
most jurisdictions, including Florida, two types of malice exist: legal malice and actual malice.
Legal malice has been defined as both “a wrongful act without reasonable excuse” and as “a
wanton disregard for the rights of others.” Farish v. Smoot, 58 So.2d 534, 538 (Fla.
1952); Richards Co. v. Harrison, 262 So. 2d 258, 262 (Fla. 1st DCA 1972); Adams v. Whitfield,
290 So. 2d 49, 51 (Fla. 1974). Actual malice, on the other hand, is often defined as ill will, hatred,
spite, and evil intent. The significant difference between actual and legal malice is that the latter
does not require proof of the defendant's ill will, hatred or spite, instead it is implied from the
defendant’s conduct. In Florida, a showing of legal malice is all that is required in order to recover
punitive damages. Adams v. Whitfield, 290 So. 2d 49 (Fla. 1974); Farish v. Smoot, 58 So. 2d 534
(Fla. 1952); Montgomery Ward & Co., Inc. v. Hoey, 486 So. 2d 1368 (Fla. 5th DCA 1986); JohnsManville Sales Corp. v. Janssens, 463 So. 2d 242 (Fla. 1st DCA 1984); Wrains v. Rose, 175 So.
2d 75 (Fla. 2d DCA 1965).
The “intentional tort-malice rule” appears to be another standard that courts utilize in
Florida. According to this rule, punitive damages are always recoverable in intentional tort cases
where malice is one of the essential elements of the tort. According to the court in Ciamar Marcy,
Inc. v. Monteiro Da Costa, the underlying rationale for this rule is that the proof of malice required
to make out the cause of action is also sufficient evidence of malice on the part of the defendant to
permit the jury to award punitive damages as punishment. Ciamar Marcy, Inc. v. Monteiro Da
Costa, 508 So. 2d 1282, 1283 (Fla. 3d DCA 1987).
The Florida legislature has set forth a standard as well for the recovery of punitive damages.
This standard can be found in section 768.72(2), Fla. Stat., and provides that the defendant must
be “personally guilty of intentional misconduct or gross negligence.” The legislature went on to
define “intentional misconduct” in section 768.72(2)(a) which provides that the defendant must
have “intentionally pursued a course of conduct with actual knowledge of the wrongfulness of the
conduct and the high probability that injury or damage to the claimant would result.” The
legislature further defines “gross negligence” in section 768.72(2)(b) as conduct that is "so reckless
or wanting in care that it constitutes a conscious disregard or indifference to the life, safety, or
rights of persons exposed to such conduct." This standard essentially codifies what the courts
throughout Florida have already established, with regard to the recovery of punitive damages.
III.

Limitations and Restrictions

In an effort to keep punitive damage awards at an appropriate level, the legislature set forth
limitations and restrictions on this breed of damages within section 768.73, Fla. Stat. Under this
provision, no cap exists on the amount of punitive damages if the fact finder determines that at the
6

time of the injury, the defendant had a specific intent to harm the claimant and further, determines
that the defendant's conduct did in fact harm the claimant. Section 768.73(1)(c). In cases where
specific intent to harm the claimant is not established, punitive damages may not exceed the greater
of three times the amount of compensatory damages awarded to each claimant or the sum of
$500,000. Section 768.73(1)(a)(1)-(2). However, different limitations apply if the finder of fact
determines that the wrongful conduct was motivated solely by unreasonable financial gain and
determines that the unreasonably dangerous nature of the conduct, together with the high
likelihood of injury resulting from the conduct, were actually known by the defendant or the
defendant's managing agent, director, officer, or other person responsible for making policy
decisions on behalf of the defendant. Section 768.73(1)(b). In those instances, the award of
punitive damages may not exceed the greater of four times the amount of compensatory damages
awarded to each claimant or the sum of $2,000,000. Section 768.73(1)(b)(1)-(2).
THE FOREIGN CORRUPT PRACTICES ACT 2
The first action listed in the Amended Complaint for which Defendant is liable is for a
violation of the Foreign Corrupt Practices Act - 15 U.S.C. §78dd-1 et seq. The violation is
considered a criminal fraud and for which there is no cap in fines and punitive damages. (See
support in Exhibits A, B, C and D.)
In fact, as recent as September 21, 2017 the Sweden-based telecommunications provider
Telia Company AB agreed to pay $965 million in a global settlement with the Securities and
Exchange Commission, U.S. Department of Justice, and Dutch and Swedish law enforcement to
resolve charges related to violations of the Foreign Corrupt Practices Act (FCPA) to win business
contracts in Uzbekistan. See Exhibit “A”.
The Foreign Corrupt Practices Act of 1977, as amended, 15 U.S.C. §§ 78dd-1, et seq.
("FCPA"), was enacted for the purpose of making it unlawful for certain classes of persons and
entities to make payments to foreign government officials to assist in obtaining or retaining
business. Specifically, the anti-bribery provisions of the FCPA prohibit the willful use of the mails
or any means of instrumentality of interstate commerce corruptly in furtherance of any offer,
payment, promise to pay, or authorization of the payment of money or anything of value to any
person, while knowing that all or a portion of such money or thing of value will be offered, given
or promised, directly or indirectly, to a foreign official to influence the foreign official in his or
her official capacity, induce the foreign official to do or omit to do an act in violation of his or her
lawful duty, or to secure any improper advantage in order to assist in obtaining or retaining
business for or with, or directing business to, any person.
Since 1977, the anti-bribery provisions of the FCPA have applied to all U.S. persons and
certain foreign issuers of securities. With the enactment of certain amendments in 1998, the antibribery provisions of the FCPA now also apply to foreign firms and persons who cause, directly
2

See Department of Justice web page; Criminal Fraud; Foreign Corrupt Practices Act.

7

or through agents, an act in furtherance of such a corrupt payment to take place within the territory
of the United States.
In this instant case in which Defendant violated the Foreign Corrupt Practices Act by
making an illegal payment to a foreign official, did not file Federal Tax Returns and provided
PDVSA with false and fraudulent supposedly “audited” financial statements, the award of punitive
damages should follow the guidance Federal government in similar cases, and for which there is
no cap in the imposition of fines and punitive damages. See support in Exhibit “A” “B” “C” and
“D”.
DEFENDANT’S NET WORTH
To determine the amount of punitive damages to award, the Jury or the trier of the facts
should consider: (i) the reprehensibility of the conduct of the defendant; and (ii) the amount of
punitive damages which will have a deterrent effect on the defendant in the light of defendant’s
financial condition.
As the Court knows, Defendant recently filed a bankruptcy proceeding in Connecticut in
which he claims he has no assets. In reality, this is just another fraud, as will be shown below, and
the Defendant has significant assets.
On June 26, 2017 the international accounting Firm of Deloitte Inc were served by Plaintiff
with a Non-Party Subpoena Duces Tecum of all document related to the financial statement audit
conducted by Deloitte Inc. of KLP Industries LLC for the years 2013 and 2014 respectively, on
behalf of Defendant. See copy of Subpoena Duces Tecum attached herewith and made a part hereof
as Exhibit “E”. As a result of the issuance of said subpoena the Panama office of Deloitte Inc.
and BAS Contadores Publicos Autorizados have been fully cooperating with Plaintiff in its
investigation of Defendant’s assets. The audited financial statements of KLP Industries for the
year 2013 and 2014 indicate assets in the amount of $708,657,709 and $527,059,289 respectively.
(See copy of Audited Financial Statements for year 2013 and 2014 attached as Exhibit “F”)
Additionally, the accountants in Panama have also provided Plaintiff with audited financial
statements of Defendant’s Company, Sea Oil Shipping Ltd., registered in the Island of Anguilla in
the Caribbean which was registered by Defendant in January 1999 and remains active. The
financial statements for this company indicate “cash on hand” of Sea Oil Shipping Ltd. for the year
ending 2014 and 2013 for the amounts of $450,200,140 and $416,994,411 respectively. (See copy
of audited financial statements for Sea Oil Shipping Ltd for year end 2014 and 2013 attached as
Exhibit “G”) Sea Oil Shipping Ltd. was listed by Defendant in his Financial Affidavit filed in
the divorce to his first wife Kim Aanonsen in the Superior Court of the State of Connecticut. (See
attached Sworn Financial Affidavit of Alf Aanonsen in his first divorce to Kim Aanonsen (Case
No. FST-FA06- 4008838-S) in the Superior Court State of Connecticut as Exhibit “H”)
A further investigation into Aanonsen’ s financial condition reveals the following:
8

Alf Aanonsen was born on July 25, 1956 in Arendal, Norway. He took his first job in 1976
with Mosvold Shipping in Norway. In 1980 he moved to Stotl-Nielsen and came to work in the
United States. He was issued a social security card No. XXX-XX-0183 in Greenwich Connecticut
between 1981 – 1983. He then moved to Odin Marine in 1985 and worked until 2000 before
becoming a shipowner.
The investigation further reveals that early in the year 2000 right after President Chavez
was elected, Defendant purchased six panama oil tankers for $28,000,000.00 “en-bloc. This
information is in the public domain as published by Trade Winds, a shipping industry publication.
By February 2, 2007, seven years after founding Sea Oil Shipping Ltd, public records
reveal that Defendant had assembled a shipping fleet of fourteen (14) major oil tankers
(Panamaxes). At the time Defendant declared to be worth at least $15,782,200 and to be involved
with eleven (11) companies whose business were Shipping and Real Estate Development in the
wealthy enclave of Greenwich, Connecticut. (See Financial Affidavit filed by Defendant in the
Family Division of the Superior Court of Connecticut in Aanonsen Kim A v Aanonsen Alf J, Case
No. FST-FA06-4008838-S filed attached as Exhibit “H”)
Relative to Defendant Aanonsen’ s shipping business, the web page for www.klpoil.com
which was set up by Defendant after closing on the purchase of KLP Industries, states as
follows: 3
Mr. Aanonsen has more than 30 years' experience in the energy and energy
transportation business primarily as a ship-owner. He has owned more than a
dozen tankers primarily Panamaxes. He was despondent owner to a similar
number of tankers and dry bulk carriers which were primarily in the coal and
grain trade. At one time he was the largest owner of “Lake Maracaibo" (shallow
draft) Panamaxes, where he obtained an intimate knowledge of the Venezuelan
oil trade, and established a closer relationship with the elite of the Venezuelan oil
industry, which remain to these days. His fleet has done more than 5,000 voyages
equivalent to 175,000,000 barrels of oil and oil products. The knowledge and
experience acquired on the movement of crude oil and products has provided a
knowledge base which no amount of research could duplicate Alf’s reputation
has provided access to an extremely large client base. His clients have included
virtually all major oil companies, numerous state oil companies and independent
traders including ExxonMobil, Pemex, Shell, Texaco, PDVSA, Petrobras, BP,
Conoco-Philips, Koch and Many others.
By the same token the web page for Sea Oil Shipping Ltd. ( http://seaoilshipping.com/)
Defendant describes in the “History” section of the company as follows:
Sea Oil is an experienced vessel owner and chartering company controlled by Mr.
Alf Aanonsen. Mr. Aanonsen, originally from Norway, has a long and successful
history in the ownership and operation of vessels transporting crude and
3

We have original copies of the web page available for the Court’s should they become required.

9

petroleum products dating back to 1999. Sea Oil has built a fleet of 14 owned
ships (Panamax tankers) and a successful chartering operation managed which
globally transported over 150,000,000 barrels of crude and petroleum products
over 500 voyages. The fleet was successfully sold at the height of the market
between 2007 and 2008. 4 Mr. Aanonsen has concluded that after a long decline
in the petroleum fleet transport business, there is now evolving a restructuring of
crude trade patterns that will drive increased demand for the global crude tanker
fleet.
The same History site provides an article by Trade Winds publications dated February 2001
titled “Sea Oil Sits Pretty After Deal of the Year” which describes in detail that Aanonsen is the
majority shareholder of Sea Oil Shipping Ltd. and how the company acquired six oil tankers
(Panamaxes) en block for $28,000,000 in the year 2000. (See Defendant’s shipping background
and articles from Trade Wind Publications attached as Exhibit “I”. Also see Binder 4 – Exhibit
List). By the year 2007 Defendant had acquired a total of 14 major Oil Tankers and listed eight
shipping companies in his sworn Financial Affidavit.
The information from the investigation also reveals thirty eight (38) privately held foreign
and domestic companies controlled by Defendant Alf Aanonsen (Exhibit “J” Also see Binder 2
and 4 Exhibit List); Thirteen (13) “trophy real estate properties”, purchased, leased and/or
developed by Defendant within the last ten years, one which was sold for over $28 million dollars,
and another prime Tribeca Apartment reportedly sold for $7.0 million dollars “free and clear”
without a mortgage (Exhibit “K” Also see Binder 1 Exhibit List); and last but not least, the
public underwriting of a bond issue for up to 200 million British pounds by Sea Oil Tankers Ltd
in Great Britain in 2016, a Company controlled by Defendant and incorporated in the Isle of Man.
The Bond Issue offered through the Gibraltar Stock Exchange. (See Exhibit “L”)
More recently, in September 2017, Aanonsen signed a contract to purchase a home in
Connecticut for approximately $22,000,000.00.
The Audited Financial Statements of KLP Industries for the year 2013 and 2014 indicate
assets in the amounts of $708,657,709 (US) and $527,059,289 (US) respectively. See copy of
Audited Financial Statements for year 2013 and 2014 attached as Exhibit “F”
The Audited Financial Statements of Defendant’s Company Sea Oil Shipping Ltd.
registered in the Island of Anguilla indicate “cash in hand” for the year ending 2014 and 2013 in
the amounts of $450,200,140 and $416,994,411 respectively. (See Exhibit “G”).

4

The fleet was successfully sold at the height of the market between 2007 and 2008”, reportedly for $800
million dollars. It is believed that the Carlyle Group acted as brokers to the transaction.

10

CONCLUSION
WHEREFORE, Suarez asks the Court to consider the applicable provisions of Federal
and Florida law in awarding punitive damages based on a percentage of Defendant’s net
worth, and granting such other and further relief as the Court deems just and proper.
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing has been EMAILED
to KLP HOLDINGS, INC. (LIBERIA), 101 Dingletown Road, Greenwich, Connecticut
06830, (alf.aanonsen@klpindustries.com); SEA OIL TRADING, INC., 101 Dingletown
Road, Greenwich, Connecticut 06830 (alf@seaoilshipping.com); and ALF J. AANONSEN,
101 Dingletown Road, Greenwich, Connecticut 06830 (alf@oceanfc.com); on this 27th
day of July, 2018.
PEREZ & RODRIGUEZ, P.A.
Attorneys for Plaintiff
95 Merrick Way, Suite 600 Coral
Gables, Florida 33134
Tel: (305) 667-9878
Fax: (305) 667-9657
Service Email: Pleadings@prmiamilaw.com
By: Isl Javier J. Rodriguez
JAVIER J. RODRIGUEZ
Fla. Bar No. 827347
Jrodriguez@prmiamilaw.com

11

APPENDIX F

